FEDERAL ELECTION COMMISSION

OFFICE OF INSPECTOR GENERAL




        FINAL REPORT

INSPECTION OF THE COMMISSION’S
  WEB SITE PRIVACY PRACTICES




             MAY 2001

         ASSIGNMENT 01-02

                                                TABLE OF CONTENTS





DESCRIPTION                                                                                                               PAGE

Background..........................................................................................................................1


Objectives, Scope, and Methodology………............……..........……..............................…3


Inspection Results…….......................................................................................….............4


Conclusions…………………………………………………………………………………….9


Appendix I: FEC Web Site Home Page…………………………………………..………..10


Appendix II: FEC Web Site Privacy Statement……………………………………..….….11


Appendix III: FEC Conference Registration Web Form..............................................…..12

                                               Background

The Office of Inspector General (OIG) conducted this inspection as a result of Federal legislation
enacted in December 2000. This legislation required each Federal Inspector General to
determine whether the agency or any third parties, including other governmental agencies, are
obtaining personal information relating to any individual’s access of an agency’s Internet sites.
Dialogue between Congressional staff and the OIG community was held in January 2000 which
resulted in an agreed upon deadline of May 2001 for the completion of the Inspectors General
reviews. The legislation, titled the Treasury and General Government Appropriations Act of
2001, section 646, contained the following language:


       “SEC. 646. Not later than 60 days after the date of enactment of this Act, the Inspector General of

       each department or agency shall submit to Congress a report that discloses any activity of the

       applicable department or agency relating to­

       (1) the collection or review of singular data, or the creation of aggregate lists that include personally

       identifiable information, about individuals who access any Internet site of the department or agency;

       and

       (2) entering into agreements with third parties, including other government agencies, to collect,

       review, or obtain aggregate lists or singular data containing personally identifiable information

       relating to any individual's access or viewing habits for governmental and nongovernmental Internet

       sites.”





The Internet, i.e. World Wide Web (Web), enables the Federal government to convey information
to the public on a wide variety of issues in a quick and effective manner. The Federal Election
Commission’s (FEC) Web site provides the public with access to information on the mission of
the Commission, such as the FEC’s enforcement of the Federal Election Campaign Act (FECA)
and the disclosure of campaign finance information. The Web site includes Web forms enabling
users to provide information to the FEC. A Web form permits political committees required to
file electronically with the FEC the capability to download electronic filing software. Another Web
form enables interested parties the option to register on-line for FEC sponsored conferences
held to discuss various topics related to the FECA. Several e-mail addresses for FEC
employees are also available on the Web site to allow the public to communicate with the
Commission.

To instill confidence in the technology and encourage the use of Federal Web sites, appropriate
privacy policies and practices must be in place to ensure that users’ right to privacy is protected.
An appropriate Internet privacy policy helps ensure that individuals have notice and choice about,
and thus confidence in, how their personal information is handled when they use the Internet.1

The Federal Election Commission (FEC), established in 1975, is an independent regulatory
agency that enforces and administers the Federal Election Campaign Act (FECA). Enforcement
of FECA includes the following: facilitating public disclosure of finance activity; providing
information and policy guidance to the public and elected officials; encouraging voluntary
compliance with the disclosure and other requirements of the Act; and enforcing the statute
through audits, investigations, and civil litigation. In addition, the Commission manages the
public funding programs for Presidential campaigns and conventions. The FEC is located in
Washington, D.C., and has approximately 338 permanent and temporary employees.

The FEC Data Systems Development Division (DSDD) is responsible for providing computer
support for the Commission. DSDD’s responsibilities are divided into two main areas: (1) the
Commission’s disclosure of campaign finance information and (2) the internal computer support
for Commission staff. DSDD, with the assistance of contractors, is generally responsible for
the installation, maintenance, training, and on-going technical assistance for the Commission’s
computer system and the agency’s Web sites.

The FEC contracts with two companies to provide Internet, or Web, related services. One
contractor provides Web services, including computer hardware, software and communications
support for the FEC’s Web connection and primary Web site (http://www.fec.gov) (Appendix I).
 A second contractor supports the FEC’s electronic filing and disclosure system, which enables
political committees to electronically submit reports to the FEC. In addition, the contractor
supports Web computer servers, which allows the public to electronically access disclosure
reports filed by U.S. House of Representatives and Senate campaigns, Presidential campaigns,
party committees, and political action committees. The disclosure reports are accessible either
from the www.fec.gov Web site or directly at the Web servers maintained by the contractor for
the FEC (http://herndon1.sdrdc.com/), (http://herndon2.sdrdc.com/).




1
 Office of Management and Budget (OMB), Memorandum 99-18, Privacy Policies on Federal Web Sites,
June 2, 1999, page 1.


                                                 2

                            Objectives, Scope, and Methodology


The objective of the Inspection was to evaluate the Commission’s Web site privacy practices. 

Specific objectives included the following:

(1) Determine whether the Commission utilizes Internet cookies or Web bugs, technologies

    used to monitor, and/or collect personal information about Web users; and whether
    applicable Federal guidelines are followed; and
(2) Evaluate the Commission’s Web site privacy policy in accordance with Federal guidelines.

The OIG reviewed the following documentation in order to obtain background information and
criteria to evaluate the Commission’s Web site privacy practices:
• Treasury and General Government Appropriations Act, 2001, section 646.
• 	 U.S. Office of Management and Budget (OMB), M-00-13, Privacy Policies and Data
     Collection on Federal Web Sites, June 22, 2000.
• OMB, M-99-18, Privacy Policies on Federal Web Sites, June 2, 1999.
• 	 U.S. General Accounting Office (GAO), Internet Privacy: Federal Agency Use of Cookies,
     (GAO-01-147R), October 20, 2000.
• 	 GAO, Internet Privacy: Agencies’ Efforts to Implement OMB’s Privacy Policy, (GAO/GGD-
     00-191) September 5, 2000.
• 	 GAO, Internet Privacy: Comparison of Federal Agency Practices with FTC’s Fair Information
     Principles, September 11, 2000.
• 	 U.S. Department of Energy, Computer Incident Advisory Capability (CIAC), Information
     Bulletin I-034: Internet Cookies, March 12, 1998.
• 	 FAQ: Web Bugs, Privacy Foundation, URL:
     http://www.privacyfoundation.org/education/webbug.html, (March 20, 2001).

The OIG communicated with several FEC divisions to conduct the Inspection. The OIG

interviewed the following FEC staff in order to complete the inspection:

(1) Webmaster;

(2) Data Systems Development Division (DSDD) Director;

(3) Freedom of Information Act (FOIA) Officer and Assistant Press Officer; and

(4) Office of General Counsel’s Legal Review and Administrative Law staff. 


The OIG also obtained technical and contract information from the two contractors that provide

Web related services to the Commission. 


The OIG used specialized computer software to determine whether the Commission’s Web site

uses Internet cookies or Web bugs. The OIG tested the entire www.fec.gov Web site for the use

of cookies. Testing of the FEC’s other Web servers used for campaign finance disclosure was

performed on a limited basis. Testing for Web bugs was also conducted on the www.fec.gov




                                               3

Web site on a limited basis. The OIG relied on OMB guidance to evaluate the Commission’s
Web site privacy policy and general Web privacy practices, including the use of Internet cookies
and Web bugs.

The OIG inspection was conducted in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.



                                      Inspection Results


Cookie and Web Bug Review
The OIG’s Inspection included a review to determine whether the FEC’s Web site utilizes
Internet cookies or Web bugs. The FEC’s Web site privacy policy specifically states the FEC
does not enable cookies on the agency Web site (Appendix II).

An Internet cookie is a computer file containing a short string of text that may be sent from a
Web server (i.e. Web site) to a Web browser (the user’s personal computer hard drive) when
the user accesses a particular Web site. Cookies allow Web sites to recognize returning users,
customize user settings on a Web site, and can collect information about a Web user. For
example, a retailer on the Web may use cookies to keep track of items selected by a Web user
to be purchased on-line.

There are two forms of Internet cookies: persistent cookies and session cookies. Persistent
cookies track information over time, and across different Web sites, and remain stored on a
user’s computer hard drive until the specified expiration date. Session cookies are used only
during a single Web browser session, and do not raise privacy concerns according to the OMB.

Web bugs are similar to Internet cookies, and are capable of monitoring who is viewing a Web
page or e-mail message. Web bugs are very small graphic images on a Web page, or in an e-
mail message and are often invisible due to their size. Web bugs are used by some Web sites
to track Web usage for advertising purposes, and to provide an independent accounting of how
many users visited a particular Web site.

The OMB issued on June 22, 2000, memorandum 00-13, and a follow-up memorandum on
September 5, 2000, addressed to the Chief Information Officers. Both touched on privacy
policies and data collection on Federal Web sites.




                                               4

The OMB guidance stated Federal Web sites should not use persistent cookies unless four

conditions are met:

(1) The site gives clear and conspicuous notice;

(2) There is a compelling need to gather the data on the site;

(3) Appropriate and publicly disclosed privacy safeguards exist for handling any information

    derived from the cookies; and
(4) The agency head gives personal approval for the use.

In addition, OMB memorandum 99-18, Privacy Policies on Federal Web Sites, provides
guidance to Federal agencies on appropriate disclosure in Web site privacy policies for both
session and persistent cookies.

To determine whether the FEC utilizes cookies or Web bugs, the OIG used specialized
computer software programs designed to detect the presence of cookies or Web bugs on a
Web site. The OIG also received assurance from the Webmaster that the FEC does not utilize
cookies or Web bugs on the FEC Web sites. In addition, the OIG contacted the two contractors
who maintain Web servers for the FEC, and received written assurance that the contractors
would not modify the FEC Web site to enable cookies or Web bugs, or disclose information to
third parties, unless specifically authorized by the FEC.

Results
The OIG found no evidence that Internet cookies or Web bugs are used on the FEC Web sites,
which is consistent with the FEC’s privacy policy.

During the Inspection testing, the OIG found on the FEC Web site (www.fec.gov) several links to
non-FEC Web sites. The FEC Web site provides links to other non-FEC Web sites containing
information that is related to the FEC mission. For example, the FEC Web site provides links to
several state government Web sites, and to a software company that provides software
necessary to view certain files available on the FEC Web site. However, privacy policies of non-
FEC Web sites may differ from the FEC, as we found during our testing. A by-product of our
testing of the FEC Web site revealed several of the non-FEC Web sites utilized both persistent
and session cookies.

The FEC’s practice of linking to other Web sites, some of which utilize cookies, is not a violation
of any known Federal policy or regulation and does not violate the FEC’s privacy policy.
However, it is possible users of the FEC Web site may click with their computer mouse on non-
FEC links without realizing the link is associated with another organization. This latter
organization may use persistent cookies or Web bugs. Therefore, the OIG suggested that the
FEC provide a notice to users that the FEC Web site contains links to non-FEC Web sites that
may have different Internet privacy policies than does the FEC, such as the use of cookies and
Web bugs.


                                                 5

The OIG discussed the issue with management and received agreement that appropriate
language would be incorporated into the FEC Web site privacy policy.



Privacy Policy Review
The FEC Web site privacy policy was reviewed to determine (1) whether the policy is adequate

based on guidance provided by the Office of Management and Budget and (2) to ensure

statements included in the privacy policy are followed.


OMB Guidance

On June 2, 1999, the OMB issued Memorandum 99-18, Privacy Policies on Federal Web Sites. 

The memorandum directed agencies to post the following:

(1) A privacy policy on the agency’s principal Web site by September 1, 1999;

(2) Privacy policies to any other known, major entry points to their Web sites by December 1,

    1999, as well as any Web page where they collect substantial personal information from the
    public;
(3) Policies that clearly and concisely inform visitors to the Web sites what information the
    agency collects about individuals, why the agency collects it, and how the agency will use it;
    and
(4) Policies that are clearly labeled and easily accessed when someone visits a Web site.

Posting of Privacy Policy
OMB memorandum 99-18 directed agencies to post privacy policies on major entry points to
their Web sites; also on any Web page where agencies collect substantial personal information
from the public. The FEC’s major Web site entry point is www.fec.gov. The FEC Web site
contains a privacy policy as required by OMB. The FEC also has a separate Web presence that
supports the FEC’s electronic filing and disclosure system enabling political committees to
electronically submit reports to the FEC. FEC.gov provides a link to the separate Web servers
hosting the disclosure system, however, the Web servers can be reached independent of the
FEC.gov Web site at http://herndon1.sdrdc.com/ and http://herndon2.sdrdc.com/.

Data was not readily available to the OIG to provide an indication of the number of users who
directly visit the disclosure system without first accessing the www.fec.gov, the site containing
the FEC’s privacy policy. Although a definitive determination could not be made as to whether
the disclosure system Web servers should be classified as major Web site entry points in
accordance with OMB guidance, the OIG suggested, and management agreed to provide
appropriate privacy notice on the disclosure system Web server(s).

FEC.gov also provides a link to an FEC contractor’s Web site where interested parties are able
to register electronically for FEC sponsored conferences (Appendix III). Individuals may register


                                                 6

on-line for FEC conferences by providing personal contact information, including name, address,
phone number, etc. The contractor provides the FEC with support for conference planning,
including the on-line registration Web form. OMB guidance directs agencies to post a privacy
policy on any Web page where substantial personal information is collected from the public. The
OIG suggested management provide a link to the FEC privacy policy on the Web page where the
personal information is collected to register for the FEC conferences.

Management agreed to provide a link to the FEC’s privacy policy on the Web page to ensure
conference registrants are aware of the privacy policies.

Privacy Policy Language
Memorandum M-99-18 also includes guidance to Federal agencies on issues to address in their

policies, such as the type of information that is automatically collected when a user visits the

agency’s Web site, and whether the agency utilizes “cookies.” The guidance is intended to be

either model language to be used verbatim, or as a starting point for agencies to tailor to their

own needs and requirements.


The FEC’s Web site privacy statement was generally consistent with the suggested language

provided by OMB. However, the FEC privacy policy lacked information related to the receipt of

information by the FEC through e-mails and Web forms. The OMB guidance suggests a

statement be included in privacy policies regarding how the information received will be used,

and then handled by the agency once the purpose of the communication has been fulfilled.


The OIG suggested that the FEC state in the Web site privacy policy how information submitted

through e-mail and Web based forms will be handled by the Commission. The OIG discussed

the issue with management, and received agreement that appropriate language would be

incorporated into the FEC Web site privacy policy.




Actual Web Site Privacy Practices

The OIG also reviewed the FEC’s Web site privacy policy to determine whether the statements

were followed in practice. Overall, the OIG found the FEC’s actual Web site privacy practices

are conducted in accordance with the stated privacy policy.


Personally Identifiable Information
The FEC Web site privacy policy states the following:
              “We do not give, sell or transfer any personal information to a third party.”

The FEC Web site allows visitors to communicate and voluntarily provide information to the
FEC. The Web site includes several e-mail addresses of FEC employees, to include the
Webmaster responsible for the Web site, and also e-mail addresses for each of the


                                                 7

Commissioners of the FEC. In addition, the OIG Web site contains two Web based forms. The
Web forms allow interested parties to register on-line for FEC sponsored conferences, and there
is also a Web form for political committees required to file with the FEC the capability to
download electronic filing software.

Although we found no evidence the FEC has given, sold, or transferred personal information to
third parties, which would be inconsistent with Federal regulations or law, the OIG concluded the
privacy policy should be revised to take into consideration instances that would require the
release of information obtained by the FEC through e-mail or the Web site. In limited cases,
Federal law enforcement actions, and the Freedom of Information Act would compel the
disclosure of certain information.

The OIG suggested management revise the privacy statement to take into consideration
instances that would require the release of information obtained through e-mail or Web based
forms.

Management agreed to revise the privacy statement to address the exceptions requiring
disclosure of information.

Web server logs
In the course of operating a Web server to host a Web site, it is customary for certain
information about Web users to be automatically recorded, or logged. Web server logs generally
record non-personal data regarding a user’s visit to a Web site, such as the date and time the
user accessed a Web page. The data contained in the Web server logs can provide useful
information on the extent to which the Web site is used by the public, and it is also a means to
detect and identify attempts by users to perform improper actions on the Web site.

The FEC privacy policy includes a list of items that are automatically logged by the FEC Web
servers. The OIG contacted the two FEC contractors who maintain the Web servers to verify
that the information logged about visitors to the FEC Web sites is consistent with the FEC
privacy policy. The OIG found the FEC’s statements materially accurate, with the exception of
two items that are automatically logged by one of the FEC contractor’s Web servers, and not
disclosed in the FEC privacy policy. One of the Web servers maintained by a contractor logs
the type of Web browser software used by the visitor to the Web site, and also the visitor’s
referring Web page, which is the Web site the user linked from to arrive at the FEC Web site.

The OIG suggested management include the two additional types of information logged by the
FEC Web server to the list already in the Web site privacy policy. Management agreed.




                                                8

Conclusions
The OIG found the FEC to be materially in compliance with applicable Office of Management and
Budget guidelines on Web site privacy. In addition, the OIG found the FEC to be adhering to their
stated Web site privacy policy.

The OIG found no evidence as a result of the Inspection to indicate that the FEC has:
   (1) 	Engaged in the inappropriate collection or review of singular data, or the creation of
       aggregate lists that include personally identifiable information about individuals who
       access any Internet site of the Commission; or
   (2) 	Inappropriately entered into agreements with third parties, including other government
       agencies, to collect, review, or obtain aggregate lists or singular data containing
       personally identifiable information relating to any individual's access, or viewing habits, of
       the Commission’s Internet sites.

The OIG identified and conveyed several issues related to the FEC’s privacy policy that should
be improved and received agreement by management that all of the issues would be addressed
in an appropriate manner.




                                                  9

Appendix I: FEC Web Site Home Page




                                     10

Appendix II: FEC Web Site Privacy Statement




                                              11

Appendix III: FEC Conference Registration Web Form




                                           12

